IN THE

Supreme Court of tf)c ®mte& States:
TODD ANTHONY AURIT Individual,
Petitioner.

supreme Court, U.S
FILED

V.

DEC 1 1 2020
OFFICE OF THE CLERK

STATE OF COLORADO
Respondent.
On Petition for Writ of Habeas Corpus
to the Supreme Court of Colorado

PETITION FOR WRIT OF CERTIORARI

todd-anthony:aurit.
Inmate No. 127586. Incarcerated,Not Represented
Box 1010 CTCF.
Canon City.
County Fremont.
Colorado [81215].
Non-Domestic-Mail.
W/O the U.S.
28 USC 1746(1).
IN PROPER PERSONAM

\'

A

’»vu
Vt v"4‘t \\\*

> .m*s 4 kr-X H

• \%pm^

i 5;

fv ;» O if)

■• ^XSS^Si

08

fc,r>V*

r
I

g U .Mio’J 3rr/i.iqu2
03JB

1

i

\

OSDS ! ? 033

t

; »**lt3Hf

1

z

is

f

A. QUESTIONS PRESENTED FOR REVIEW

1. Whether the Court should resolve the following
questions for which the higher state court denied last
resort in this case: does the State of Colorado break the
Act cited as the Pub. L. 105-34 "Taxpayer Relief Act of
1997", and contradict the ruling and/or determination
letter from which has been neither revoked nor modified,
from the Secretary of the Treasury recognizing the
implementation to the Petitioner non-U.S. Person I.R.C.
§ 7701 (a) (1), as irrevocable and irreversible election
(individual waive the benefit to be treated as an U.S.
Person under the provisions of U.S. tax treaties and
notifies the Secretary of the commencement of such
treatment), the relief provided prior to the effective date
of this classification status may only be revoked with the
consent of the Commissioner.

2.

Does the State of Colorado have lawful authority

to continue to detain in custody to Todd Anthony Aurit
as individual, Foreign Estate of Todd Anthony Aurit and
Foreign Grantor Trust of Todd Anthony Aurit as entities,
excluding the merit to consider statutory provision
section 301.7701-7

(f) (4) (ii) to this

case in

contravention of the safer harbor test; said trust is
administered in a jurisdiction outside the United States
Inc. and it is subject to an automatic migration provision
described in section 301.7701-7 (c) (4) (ii), such estate
and trust shall be treated as having transferred
immediately before becoming a foreign estate and trust.

n

B. PARTIES INVOLVED
Petitioner: todd-anthony:aurit.
Inmate No. 127586.
Box 1010 CTCF.
Canon City.
Colorado [81215]
Non-Domestic-Mail

w/o u.s.
28 USC 1746(1).
In Proper Personam

Respondent: STATE OF COLORADO,
PHIL WEISNER
Attorney General
Ralph L. Carr Colorado
Judicial Center
1300 Broadway, 9th Floor
Denver, CO 80203

in

2. Does the State of Colorado have lawful authority to
continue to detain in custody to todd-anthony:aurit as
individual, Foreign Estate of Todd Anthony Aurit and
Foreign Grantor Trust of Todd Anthony Aurit as entities,
excluding the merit to consider statutory provision
section301.7701 -7(f) (4) (ii) to this case in contravention
of the safer harbor test; said trust is administered in a
jurisdiction outside the United States Inc. and it is subject
to an automatic migration provision described in section
301.7701-7 (c) (4) (ii), such estate and trust shall be
treated as having transferred immediately before
becoming a foreign estate and trust

I. CONCLUSION

11

14

vi

A. QUESTIONS PRESENTED FOR REVIEW
1. Whether the Court should resolve the following
questions for which the higher state court denied last
resort in this case: does the State of Colorado break the
Act cited as the Pub. L. 105-34 "Taxpayer Relief Act of
1997", and contradict the ruling and/or determination
letter from which has been neither revoked nor modified,
from the Secretary of the Treasury recognizing the
implementation to the Petitioner non-U.S. Person I.R.C.
§ 7701 (a) (1), as irrevocable and irreversible election
(individual waive the benefit to be treated as an U.S.
Person under the provisions of U.S. tax treaties and
notifies the Secretary of the commencement of such
treatment), the relief provided prior to the effective date
of this classification status may only be revoked with the
consent of the Commissioner.

v

11

2. Does the State of Colorado have lawful authority to
continue to detain in custody to todd-anthony:aurit as
individual, Foreign Estate of Todd Anthony Aurit and
Foreign Grantor Trust of Todd Anthony Aurit as entities,
excluding the merit to consider statutory provision
section301.7701 -7(f) (4) (ii) to this case in contravention
of the safer harbor test; said trust is administered in a
jurisdiction outside the United States Inc. and it is subject
to an automatic migration provision described in section
301.7701-7 (c) (4) (ii), such estate and trust shall be
treated as having transferred immediately before
becoming a foreign estate and trust.

11

14

I. CONCLUSION

vi

2. TABLE OF CITED AUTHORITIES

a. U.S. Public Law
i, iv, 3, 3, 4, 7,11
Pub. L. 105-34Taxpayer Relief Act of 1997 located at www.taxpayer
relief act of 1997 com.
Pub. L. 100-352

2

b. Statutes
111STAT. 788

i, iv, 3, 4, 7, 11

102STAT. 662

2

c. Internal Revenue Code
I.R.C § 7701 (a) (1)

i, v, 3, 11

I.R.C. § 7701 (a) (9)

6

I.R.C. §7701 (a) (30) (E) (i)

6

I.R.C. § 7701 (a) (30) (E) (i) (ii)

6

I.R.C. § 7701 (a) (31) (A)

3,4

I.R.C. § 7701 (a) (31) (B)

3,5

26 CFR § 301.7701-7 (c) (3) (i) (ii)
26 CFR § 301.7701 -7 (c) (4) (ii)
Vll

6
ii, vi, 8, 13

26 CFR § 301.7701 -7 (f) (4) (ii)

ii, v, 12, 13

26 CFR Part 1 [REG -209038-89]

9

26 U.S.C § 679 (a) (2) (A)

4

26 U.S.C § 679 (a) (5) (B)

4

26 U.S.C § 679 (c) (1) (A) (B)

4

26 U.S.C §679 (d)(1) (2)

6

26 U.S.C § 6048 (a) (2) (B)

4

26 U.S.C § 6048 (a) (4) (A)........

4,5

I.R.S. Part 21. Chapter 7. Sect 13.
Manual 21.7.13.3.2.7.1 (4)..........

5

H.R. Rep. No. 542, Part 2, 104 Cong.,
2d Sess. 31 (1996)..............................

10

d. 28 U.S.C
Section 1257 (a)

2

Vlll

D.

CITATION OF OPINION BELOW

People of State of Colorado v Todd Anthony Aurit
2020SA306
Lack of opinion for no case has even broached this issue.

The Petitioner, todd-anthony: aurit, requests that the
Court issue its writ of certiorari, review the Writ of
Habeas Corpus Under C.A.R. Rule 21 of the
COLORADO SUPREME COURT received on August
24, 2020 (A-l)1 (DENIED, BY COURT, EN BANC, ON
OCTOBER 19, 2020) (A-2)2.

1

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant to 102
STAT.662 Pub. L. 100-352 sec. 3. 28 U.S.C. § 1257(a) to
review the denied of the Colorado Supreme Court where
the validity of a treaty or statute of the United States is
drawn in question where the immunity is specially set up
or claimed under treaties or statutes of, or commission
held or authority exercised under, the United States.

1 References to the appendix to this petition will be
made by the designation “A” followed by the appropriate
page number.

2

F.

PUBLIC LAW STATUTE AND

PROVISIONS
The [H.R. 2014] PUBLIC LAW 105-34 105th Congress,
111 STAT. 788 provides that the term “person” include
an I.R.C. § 7701 (a) (1) individual, sec. I.R.C. § 7701 (a)
(31) (A) Foreign Estate and I.R.C. § 7701 (a) (31) (B)
Foreign Trust.

3

G. STATEMENT OF THE CASE
1. Factual Background
(a) Petitioner elect instituted an irreversible non-U.S. life
estate and a non-U.S. lifetime (inter-vivos) trust under
IRC & Section 679 (a) (5) (B), following the regulations
over Pub. L. 105-34 "Taxpayer Relief Act of 1997";
establishing that neither shall be considered to have an
office or permanent residence in the United States Inc., or
nor to be engaged in a trade or business in the United
States Inc. Petitioner submitted information required
under section 679 (c) (1) (A) (B) demonstrating to the
satisfaction of the Secretary the creation of the
FOREIGN ESTATE OF TODD A. AURIT I.R.C. § 7701
(a) (31) (A), elect the treatment provided in section 679
(a) (2) (A) for reason of dead in the eyes of the law
(fiction as purpose of the law), providing written
contents of notice to the Secretary in accordance with
section 6048 (a) (2) (B) identity of the trust, trustee and
beneficiary and as responsible party section 6048 (a) (4)
4

(A) as the grantor in the case of the creation of an inter
vivos trust; establishing an irrevocable FOREIGN
GRANTOR TRUST OF TODD A. AURIT I.R.C. § 7701
(a) (31) (B), Certificate of Foreign Status of Beneficial
Owner Tax Withholding and Reporting (individual).
I.R.S. Part 21. Chapter 7. Sect 13. Manual transmittal
21.7.13.3.2.7.1 (4).

(b) The election is the result the individual no longer having
any reasonable basis for being treated as a U.S. Inc.
domestic individual changing its residency to a non-U. S.
foreign trust and foreign estate, such trust shall be treated
as having transferred, immediately before becoming a
foreign trust.

(c) Petitioner’s database are conclusive and/or irrefutable
evidence of violation of U.S. tax treaties and laws against
Petitioner, Treaties and laws are solemn agreements
between nations, individuals and/or entities, are trust test

5

the integrity of those who sign such agreement. The State
of Colorado dishonored by presumption without basic
fact see section 679 (d) (1) (2) that Petitioner remains
being an United States person under I.R.C. § 7701 (a)
(30) (E) (i) and (ii), unless that the custodian in personam
under penalty of prejudice demonstrates to the
satisfaction of the Commissioner the control test over the
petitioner and that is effectively connected with the
conduct of trade or business into the United States.
26 CFR § 301.7701-7 (c) (3): Definitions.
The following definitions apply for purposes
of this section: (i) Court. The term court
includes any federal, state, or local court, (ii)
The United States. The term the United
States is used in this section in a
geographical sense. Thus, for purposes of
the court test, the United States includes
only the States and the District of Columbia
section § 7701 (a) (9). Accordingly, a court
within a territory or possession of the United
States or within a foreign country is not a
court within the United States.
6

2. Pub. L.105-34 ’’Taxpayer Relief Act of 1997”
Petitioner non-U.S. person todd-a:aurit and the
“decedent” ESTATE OF TODD A. AURIT( fiction as
purpose of the law) by the direct pronouncement as
burden of proof Important Public Notice (A-3) , from
IRS no further required action letter (A-4)4, by IRS
determination letter (A-5)5, by notification to State of
Colorado Board of Trustees Notice of Removal (A-6)6,
by Colorado State Department Apostille letter (A-7)7, by
Q

Colorado Department of Revenue (A-8) , by Estate Final
Return (A-9)9, by Colorado Social Security
Administration (A-IO)10, by COLORADO CORONERS
ASSOCIATION (A-l l)11, by a provision of the Colorado
Open Records Act (A-12)12, and The U.S. General
Service Administration (GSA) streamlines the
administrative work of the federal government (A-13) 13 ,
keeping the National Center for statistic U.S. Database
such as, Social Security Administration claims, and by
evidence of informal notice of claims presented by the
7

Petitioner, conclude that expiration of the period of
limitations date of decedent’s death of any/all U.S.
person intent to having authority, control and or decisions
over the Petitioner is invalid, ineffective and nullify.
Section 301.7701-7 (c) (4) (ii)
Automatic migration provisions.
Notwithstanding any other provision in this
section, a court within the United States is
not considered to have primary supervision
over the administration of the trust if the
trust instrument provides that a United
States court's attempt to assert jurisdiction or
otherwise supervise the administration of the
trust directly or indirectly would cause the
trust to migrate from the United States.
However, this paragraph (c) (4) (ii) will not
apply if the trust instrument provides that
the trust will migrate from the United States
only in the case of foreign invasion of the
United State or widespread confiscation or
nationalization of property in the United
States.

8

DEPARTMENT OF THE TREASURY
Internal Revenue Service 26 CFR Part 1
[REG-209038-89] RIN 1545-AU74
Residence of Trusts and Estates—7701
B. Control Test Issues
Power of Veto Decisions
3. Effect of power to veto decisions. The proposed
regulations define control to mean having the power, by
veto or otherwise, to make all of the substantial decisions
of the trust, with no other person having the power to
veto any of the substantial decisions. Thus, if United
States fiduciaries have the power to make all the
substantial decisions of the trust, but a foreign person
could veto one of the decisions, the trust would fail the
control test and would be a foreign trust.
The final regulations retain the definition of control set
forth in the proposed regulations. The effect of a veto
9

power is specifically noted in the legislative history. H.R.
Rep. No. 542, Part 2, 104 Cong., 2d Sess. 31 (1996).
Furthermore, the control should be defined to mean full
power over the trust consistent with a trustee’s traditional
role in trust administration. Accordingly, if a United
States person only has the power to veto the decisions of
a foreign trustee, the control test is not satisfied.
Likewise, if a foreign person has the power to veto the
decisions of a United States trustee, the control test is not
satisfied. Thus, in both cases, the trust would be a foreign
trust.
At the conclusion, Petitioner certificated of foreign
status non- withholding Ancestral Foreign Trust § Estate
unincorporated foreign religious international
organization, exempt from federal income taxes under
Act of Congress.

10

H. REASONS FOR GRANTING THE WRIT

1. Whether the Court should resolve the following
questions for which the higher state court denied
last resort in this case: does the State of Colorado
break the Act cited as the Pub. L. 10534"Taxpayer Relief Act of 1997", and contradict
the ruling and/or determination letter from which
has been neither revoked nor modified, from the
Secretary of Treasury recognizing the
implementation to the Petitioner non-U.S. Person
I.R.C. § 7701(a) (1), as irrevocable and irreversible
election (individual waive the benefit to be treated
as an U.S. Person under the provisions of U.S. tax
treaties and notifies the Secretary of the
commencement of such treatment), the relief
provided prior to the effective date of this
classification status may only be revoked with the
consent of the Commissioner.
11

Petitioner is entitled to revoke his prior benefits election,
catalogued a domestic trust § estate United States Person
making a gratuity and direct transfer becoming foreign
ancestral trust § estate, having the exclusive power to
make decisions regarding to withdraw U.S. Inc. domestic
trust § estate for not having conduct of trade or business
into the U.S territory or possessions during Petitioners’
life time. The Petitioner understands that the change in
his benefits election must be due to and consistent with
the change in status and that the change must be
acceptable under the Regulations issued by the
Department of Treasury.

2. Does the State of Colorado have lawful authority
to continue to detain in custody to Todd Anthony
Aurit as individual, Foreign Estate of Todd
Anthony Aurit and Foreign Grantor Trust of Todd
Anthony Aurit as entities, excluding the merit to
consider statutory provision section 301.7701-7 (f)
12

(4) (ii) to this case in contravention of the safer
harbor test; said trust is administered in a
jurisdiction outside the United States Inc. and it is
subject to an automatic migration provision
described in section 301.7701-7 (c) (4) (ii), such
estate and trust shall be treated as having
transferred immediately before becoming a foreign
estate and trust.
Petitioner is entitled accordingly with the proposed
regulations provide after the date of final determination
which any/all of the following has occurred: (A) The
issuance of an estate final return, (B) the final
disposition of any/all claim declared civil death (to the
eyes of the law), (C) the issuance of a decision,
judgment, appeals and/or petition for certiorari which is
filed after the decision, judgment and denied order of a
higher court; (E) the expiration of the period of
limitations for human action of the estate (fiction as a
purpose of the law).
13

I.

CONCLUSION
In accordance with the laws of the United States,
Respondent’s, et-al, in-law, did knowingly, in fact,
agree with everything in this Writ, by Respondent’s et-al.
By Respondent’s acquiescence did in fact, tacitly agree,
under the tacit laws of the United States. Therefore:
Respondent’s, et-al, have in fact willfully, knowingly waived
all rights to any argument, or defense, against why this Writ
should not be ordered/granted and all relief requested in favor
of the Petitioner, such other relief, this, Supreme Court of
the United States, deems just, proper, and equitable.
The Petitioner requests that the Court grant the petition
for Writ of Certiorari.
Respectfully Submitted,

By: Estate of todd...

Date:

12-11-2020

14

todd-anthony: aurit.
Inmate No. 127586.
Box 1010 CTCF.
Canon City.
Colorado. [81215]
Non-Domestic-Mail.
W.O. the U.S.
28 USC 1746(1).
In Proper Personam

15

